     ABNORMAL GENERAL LEDGER ACCOUNT BALANCES
          FOR OTHER DEFENSE ORGANIZATIONS
            REPORTED BY DFAS CLEVELAND


Report No. D-2001-049               February 13, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
STARS-HCM             Standard Accounting and Reporting System-Headquarters
                         Claimant Module
                        Office of the Inspector General, DoD
Report No. D-2001-049                                                 February 13, 2001
   (Project No. D2000FA-0146.001)

          Abnormal General Ledger Account Balances for Other
           Defense Organizations Reported by DFAS Cleveland

                                    Executive Summary

Introduction. Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
Management Act of 1994,” October 13, 1994, requires DoD and other Government
agencies to prepare annual audited financial statements. This report is the second in a
series of reports supporting our audit of the FY 2000 financial statements for “Other
Defense Organizations-General Funds.” That entity represents a consolidation of
financial information from various Defense organizations and funds that use the
Treasury Index 97 symbol. This report addresses the process used by the Defense
Finance and Accounting Service (DFAS) Cleveland to report financial information for
Other Defense Organizations. DFAS Cleveland reported $924.9 million of abnormal
general ledgers account balances for Other Defense Organizations at the end of FY
1999.

Objectives. The overall audit objective was to determine the accuracy and
completeness of the data that DFAS Cleveland submitted to DFAS Center for
Sustaining Forces-Indianapolis for inclusion in the financial statements for the Other
Defense Organizations. Specifically, we concentrated on the causes of abnormal
balances in the general ledger accounts. We also reviewed the DFAS Cleveland
management control program as it related to our audit objective.

Results. Improvements were needed in promptly reconciling undistributed
disbursements, recording liabilities in the accounting system, and properly preparing
and documenting journal vouchers. Specifically:

DFAS Cleveland reported $711 million of abnormal balances in the March 31, 2000,
trial balance for the Other Defense Organizations. Of the $711 million, $645.5 million,
or more than 90 percent, was related to general ledger account 2111 (Accounts
Payable). As a result, the accounts payable reported in the consolidated trial balance
for the Other Defense Organizations was not accurate and the reported expenses for the
accounting period were not reliable (finding A).

DFAS Cleveland did not have complete documentation for the 81 on-line accounting
adjustment transactions made to correct the abnormal balance for general ledger
account, 2111 (Accounts Payable) valued at $495 million. As a result, the usefulness
of the reconciliation process for proper distribution of erroneous disbursements was
reduced, and errors in adjustment amounts may go undetected. Also, the reliability of
future financial statements will continue to be affected until the problems identified are
corrected (finding B).

Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service Cleveland:

     •   establish and implement policies and procedures to perform monthly
         reconciliation of undistributed disbursements,

     •   modify or reprogram the Standard Accounting and Reporting System-
         Headquarters Claimant Module to allow the system to show general ledger
         account balances for prior periods, and

     •   prepare journal vouchers in accordance with DoD and DFAS guidance for all
         correcting accounting entries and coordinate adjustments with affected
         organizations.

Management Comments. The draft report was issued on October 30, 2000, and we
received no management comments. We request that the Director, Defense Finance
and Accounting Service, respond to the final report by March 15, 2001.




                                             ii
Table of Contents

Executive Summary                                     i


Introduction
     Background                                      1
     Objectives                                      2

Findings
     A. Reporting and Disclosing Abnormal Balances   3
     B. Support for Accounting Adjustments           8

Appendixes
     A. Audit Process
          Scope                                      12
          Methodology                                13
          Management Control Program Review          13
          Summary of Prior Coverage                  14
     B. Report Distribution                          15
Background
    Other Defense Organizations. Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-
    356, the “Federal Financial Management Act of 1994,” October 13, 1994,
    requires DoD and other Government agencies to prepare annual audited
    financial statements. The Inspector General, DoD, is responsible for auditing
    DoD-wide financial statements. The DoD Agency-Wide financial statements
    include a reporting entity entitled “Other Defense Organizations-General
    Funds.” The Other Defense Organizations represents a consolidation of
    financial information from various Defense organizations and funds that use the
    Treasury Index Symbol 97. During FY 1999, the Other Defense Organizations-
    General Funds reported $42 billion in assets, $201.8 billion in liabilities, and
    $58.1 billion in budget authority. This is the second in a series of reports on the
    accuracy of data submitted in support of the FY 2000 financial statements for
    Other Defense Organizations-General Funds. This report discusses the
    reliability and effectiveness of policies and procedures used to report financial
    information for the Other Defense Organizations-General Funds by the Defense
    Finance and Accounting Service (DFAS) Cleveland.

    Undistributed Disbursements. Undistributed disbursements occur because
    disbursing agents in the DoD and other Federal agencies disburse funds and
    report these disbursements directly to the Department of the Treasury in the
    month of disbursal. However, accounting offices responsible for recording the
    disbursements into the general ledger accounts do not receive the cash
    disbursement information until a later date. When the accounting office receives
    the cash disbursement information, the information may not contain all
    necessary data for the accounting offices to properly distribute to the fiscal
    stations responsible for the disbursements. Accordingly, this often creates a
    situation where the Department of the Treasury and the accounting offices’
    general ledger accounts for disbursements are not equal. The difference is
    referred to as undistributed disbursements. To properly account for the
    discrepancies, the accounting office should perform a monthly reconciliation of
    undistributed disbursements.

    Abnormal Balances Reported in the FY 1999 Year-end Trial Balances for
    the Other Defense Organizations. Inspector General, DoD, Report No.
    D-2000-153, “Compilation of the FY 1999 Financial Statements for Other
    Defense Organizations-General Funds,” June 23, 2000, states that during
    FY 1999, 11 accounting offices submitted year-end trial balances containing
    $3.4 billion of abnormal balances. Of the $3.4 billion of abnormal balances
    reported in the year-end trial balances, the DFAS Cleveland reported
    $924.9 million.




                                         1
Objectives
     The audit objective was to determine the accuracy and completeness of the data
     submitted by DFAS Cleveland to DFAS Indianapolis for inclusion in the
     financial statements for the Other Defense Organizations. Specifically, we
     concentrated on the causes of abnormal balances in the general ledger accounts.
     We also reviewed the DFAS Cleveland management control program as it
     related to our audit objective. Appendix A discusses the audit scope and
     methodology and our review of the management control program.




                                        2
                    A. Reporting and Disclosing Abnormal
                       Balances
                    The DFAS Cleveland reported $711 million of abnormal balances in the
                    March 31, 2000, trial balance for the Other Defense Organizations. Of
                    the $711 million, $645.4 million or more than 90 percent were related to
                    general ledger account 2111 (Accounts Payable). The abnormal balance
                    occurred because the DFAS Cleveland had not established and
                    implemented procedures to adequately research and resolve undistributed
                    disbursements for proper disposition. Abnormal balances in accounts
                    payable occurred because:

                           •   the Standard Accounting and Reporting System-Headquarters
                               Claimant Module (STARS-HCM) was not designed to process a
                               payable transaction. Accordingly, the accounts payable would
                               become abnormal when the DFAS Cleveland tried to liquidate
                               accounts payable that had not been established or to transfer
                               undistributed disbursements to accounts payable as required by
                               DoD guidance1, and
                           • the STARS-HCM could not produce a monthly trial balance for
                             the previous month because the module was not designed to
                             show a snapshot of each general ledger account balance.
                             Accordingly, this limitation hindered the reconciliation process.

                    As a result, the accounts payable reported in the consolidated trial
                    balance for the Other Defense Organizations was not accurate and the
                    related expenses were not reliable in the accounting period incurred.



Reconciliation Guidance
           Office of Management and Budget Guidance. Statement of Federal Financial
           Accounting Standards No.1, “Accounting for Selected Assets and Liabilities,”
           March 30, 1993, requires Federal entities to reconcile undistributed
           disbursements due to time lags, and correct undistributed disbursements due to
           errors.

           DoD Guidance. DoD Regulation 7000.14-R, “Financial Management
           Regulation,” volume 6A, chapter 2, January 1999 requires DFAS to establish
           procedures to investigate unreconciled differences and document all appropriate
1
    DoD Regulation 7000.14-R, volume 11B, chapter 54, states that the undistributed disbursement account
    is used to record the disbursements reported by the financial network which cannot be identified to a
    specific organizational level or transaction. Amounts recorded in this account shall be researched for
    proper disposition, by the lowest organizational level to which they can be distributed. Prior to
    financial report preparation, the remaining value in this account shall be transferred to account payable.

                                                       3
    adjustments to balance the general ledger amount with the amount of the
    subsidiary records. The guidance further requires DFAS to perform the
    reconciliation on a monthly basis in order to determine the cause of the
    differences. DFAS is also required to take appropriate actions to ensure the
    accuracy and integrity of the accounting system and monthly reports when
    unreconcilable differences between the general ledger and the subsidiary ledger
    records exceed $1 million.



Abnormal Balances Reported by DFAS Cleveland
    Abnormal Balances. An account balance is abnormal when the reported
    balance does not comply with the normal debit or credit balance established in
    the general ledger chart of accounts. For example, Accounts Payable normally
    has a credit balance; therefore, a debit balance is an abnormal balance.
    Abnormal balances require explanation and reconciliation because if
    uncorrected, they will distort the accuracy of financial information reported for
    an entity. As of March 31, 2000, the quarterly trial balances prepared by
    DFAS Cleveland for the Other Defense Organizations reported $711 million of
    abnormal balances in seven general ledger accounts as shown in the table below.

                Abnormal Balances Reported by DFAS Cleveland
                        for Other Defense Organizations
    General Ledger Account                              Amount

    1311 - Accounts Receivable                                 $     244,375
    2111 - Accounts Payable                                      645,483,782
    3100 - Appropriated Capital                                       928,527
    5200 - Revenue From Services Provided                         32,060,228
    5700 - Appropriated Capital Used                                  161,309
    6100 - Other Services                                             161,309
    6500 - Cost of Goods Sold                                     32,060,229
        Total                                                  $ 711,099,759


    Corrections Made by DFAS Cleveland and DFAS San Diego. The DFAS
    Cleveland had not established procedures to perform a monthly reconciliation to
    determine specific causes of the reported undistributed disbursements.
    However, during the audit, the DFAS Cleveland and DFAS San Diego
    accounting personnel performed special research of undistributed
    disbursements/collections for appropriation 0400, Research, Development, Test,
    and Evaluation, and appropriation 0510, DoD Base Realignment and Closure
    Account. DFAS Cleveland selected appropriation 0400 for review because it
    noticed that undistributed disbursements at the departmental level increased by
    more than $300 million in May 2000. Based on the results of the research,
    accounting personnel concluded that because of a computer programming error,
    $495.0 million of undistributed disbursements were erroneously posted to the
    departmental general ledger accounts. Therefore, they reduced the departmental

                                        4
    undistributed disbursements by $495.0 million. Accordingly, the abnormal
    balance for general ledger account 2111 (Accounts Payable) was reduced by the
    same amount. The accuracy and completeness of the adjustment is discussed in
    finding B of this report.

    In addition, DFAS Cleveland and DFAS San Diego accounting personnel
    reduced abnormal balances reported for appropriation 0510, general ledger
    account 5200 (Revenue from Services Provided) and general ledger account
    6500 (Cost of Goods Sold) by $64 million because DFAS San Diego
    erroneously reported negative collections to the Centralized Expenditure
    Reimbursement Processing System. However, DFAS Cleveland and DFAS San
    Diego did not have complete audit trails for the above adjustments.

Reasons for Reporting Abnormal Balances
    The lack of established procedures to adequately research and resolve
    undistributed disbursements for proper disposition was the primary cause of
    abnormal balances. Also, the limitations of the STARS-HCM in the recording
    of accounts payable and the retrieval of prior month trial balances contributed to
    the continued reporting of abnormal balances in accounts payable.

    Compliance with Reconciliation Guidance. DoD Regulation 7000.14-R,
    “Financial Management Regulation,” volume 11B, chapter 54, December 1994,
    requires that all undistributed disbursements must be researched for proper
    disposition by the lowest organizational level to which they can be distributed.
    As of March 31, 2000, the undistributed disbursements reported for the
    seventeen appropriations for Other Defense Organizations had an absolute value
    of $1.46 billion. However, DFAS Cleveland had not established procedures to
    perform monthly reconciliation to determine specific causes of the reported
    undistributed disbursements. According to DFAS Cleveland accounting
    personnel, the monthly reconciliation of undistributed disbursements and
    collections for Treasury Index 97 were not performed because DFAS Cleveland
    was in the process of developing corrective actions and procedures to adequately
    reconcile undistributed disbursements and collections. Also, the DFAS
    Cleveland would need additional resources to adequately perform the research
    when reconciliation procedures were fully developed.

    Adjustments to Accounts Payable. To comply with DoD Regulation
    7000.14-R, volume 11B, chapter 54, December 1994, DFAS Cleveland
    programmed its departmental accounting system to adjust its accounts payable
    by the amount of undistributed disbursements prior to preparing financial
    reports. Accordingly, if accounts payable were less than the amount of
    undistributed disbursements, accounts payable would show a debit balance.

    System Limitations. The Navy organizations using the STARS-HCM could not
    process a payable transaction and could not retrieve a prior month trial balance
    because the system was not designed to perform the above functions. As a
    result, accounts payable would have a debit, or abnormal balance when DFAS


                                        5
    Cleveland tried to liquidate an organization’s liabilities that had not been
    recorded, or to transfer unreconcilable undistributed disbursements to accounts
    payable prior to preparing financial reports as required by DoD guidance.

            Recording Accounts Payable. Naval Audit Service, Report
    No. N2000-0031, “Department of the Navy Principal Statements for Fiscal
    Year 1999: Accounts Payable Reporting Process,” July 28, 2000, states that the
    Navy organizations did not record all FY 1999 accounts payable transactions.
    Specifically, organizations using the STARS-HCM could not record accounts
    payable since the module was not designed to process a payable transaction.
    The report recommended that the Navy accrue and report all liabilities to
    accounts payable. DFAS Cleveland accounting officials told us that DFAS
    Cleveland was in the process of converting all the Navy general ledger accounts
    to the U.S. Standard General Ledger during FY 2001, and when completed,
    STARS-HCM will be able to accrue all liabilities.

    Because the Naval Audit Service made recommendations to correct the
    deficiencies in accruing and reporting accounts payable in Report
    No. N2000-0031, and DFAS was in the process of modifying STARS-HCM, we
    are not making any additional recommendations to correct the deficiencies
    noted.

           Retrieving Prior Month Trial Balances and Producing Subsidiary
    Ledger. STARS-HCM was not able to retrieve a prior month trial balance for
    each general ledger account. Also, it was unable to produce a subsidiary ledger
    to support the reported accounts payable.

    We judgmentally selected and requested supporting documentation and
    subsidiary ledgers for $495.0 million of the $645.5 million of abnormal balance
    in accounts payable reported in the March 31, 2000, trial balance. However,
    the reported accounts payable could not be verified because STARS-HCM was
    not designed to show a snap shot for each general ledger balance and was not
    able to produce an accounts payable subsidiary ledger that provided detailed
    information on the account. This problem was identified in Naval Audit Service
    Report No. 0006-98, dated November 14, 1997. DFAS concurred with the
    recommendation and issued a System Change Request on July 7, 1997;
    however, this problem remained unsolved at the time of our audit. As a result,
    DFAS Cleveland could not effectively reconcile the amount of accounts payable
    reported in the trial balances to the supporting subsidiary records.



Recommendations
    A. We recommend that the Director, Defense Finance and Accounting Service
       Cleveland:

               1. Establish and implement policies and procedures to reconcile,
    research, and resolve all undistributed disbursements.

                                        6
               2. Coordinate and establish a reconciliation schedule with major
    claimants to reconcile the subsidiary records with the financial balance.

               3. Modify or reprogram the Standard Accounting and Reporting
    System-Headquarters Claimant Module to allow the system to show general
    ledger account balances for prior periods.


Management Comments Required
    The Director, DFAS, did not provide comments to a draft of this report. We
    request that the Director provide comments on the final report.




                                       7
            B. Support for Accounting Adjustments
            The DFAS Cleveland did not have complete documentation for the
            81 on-line accounting adjustment transactions totaling $495.0 million to
            correct the abnormal balance for general ledger account, 2111 (Accounts
            Payable). Adequate support for the accounting adjustments was lacking
            because the DFAS Cleveland had not established management controls to
            verify that:

                  • the process used to identify, correct, and adjust the balances to
                    the official accounting records was thoroughly documented,

                 • proposed adjustments were adequately coordinated and approved
                   by the affected Navy organizations before the adjustment
                   transactions were entered into the accounting systems, and

                 • key duties and responsibilities in preparing, reviewing, and
                   approving accounting adjustment transactions were separated
                   among individuals.

            As a result, the usefulness of the reconciliation process for proper
            distribution of erroneous disbursements reported by the accounting
            system was reduced and errors in adjustment amounts may go
            undetected. Also, the reliability of future financial statements will
            continue to be affected until the problems identified are corrected.


Criteria and Responsibilities
     Reportable Conditions. The American Institute of Certified Public
     Accountants Statement on Auditing Standards No. 60, “Communication of
     Internal Control,” states that reportable conditions represent significant
     deficiencies in the design or operation of internal control that could adversely
     affect the organization’s ability to record, process, summarize, and report
     financial data. For example, absence of appropriate segregation of duties, and
     absence of appropriate reviews and approvals of transactions, accounting
     entries, or systems output are considered to be reportable conditions.

     DoD Guidance. DoD Regulation 7000.14-R, volume 6A, chapter 2,
     “Departmental Financial Reports Roles and Responsibilities,” January 1998,
     requires DFAS to identify the requirement for adjustments to financial data.
     Also, the guidance requires DFAS to maintain sufficient supporting
     documentation for each adjustment. The supporting documentation shall
     include:

            •   the rationale and justification for the adjustment,




                                          8
           •    the detail numbers and dollar amounts of errors or conditions that are
                related to the transactions or records that are proposed for
               adjustment,

           •   the date of the adjustment, and

           •   the name and position of the individual approving the adjustment.

    DFAS Guidance. On August 2, 2000, DFAS issued guidance to implement the
    recommendation made by Inspector General, DoD, Report No. D-2000-160,
    “Compilation of the FY 1999 Army General Fund Financial Statements at the
    Defense Finance and Accounting Service Indianapolis Center,” July 12, 2000.
    The guidance provides instructions on how the DFAS Centers and its Operating
    Locations should maintain supporting documentation for 10 different categories
    of correcting journal vouchers. Also, the guidance requires DFAS to have
    internal controls in place requiring that all journal vouchers be:

           •   sequentially numbered,

           •   identified by specific categories,

           •   reviewed to ensure proper recording,

           •   documented to support the validity and the amount of the journal
               voucher,

           •   authorized and approved by the appropriate authority, and

           •   annotated with name of both the preparer and the approver.

Controls Over Adjustments to the General Ledger
    Internal controls over preparation, documentation, review, and approval of
    accounting adjustment transactions need to be strengthened.

    Adjustments Made to the Accounting Records. DFAS Cleveland made
    81 on-line accounting adjustment transactions to the Navy general ledger
    account, 1922 (Undistributed Disbursements) valued at $495 million during the
    second quarter of FY 2000 to reclassify/distribute the departmental undistributed
    disbursements to other Navy organizations for proper research and correction of
    the undistributed amounts. The $495 million were previously posted to the
    departmental general ledger account due to a computer posting error. Also, this
    reclassification affected the abnormal balance of accounts payable by the
    corresponding amount because DoD guidance requires the remaining balance of
    undistributed disbursements be transferred to the general ledger account,
    2111 (Accounts Payable) prior to the preparation of the financial report. The
    adjustments were necessary because they were to correct accounting entry
    errors.


                                         9
Review of Adjustments. Review of the 81 adjustments showed that the DFAS
Cleveland did not prepare journal vouchers or the narrative explaining the
reason for the adjustments. Supporting documentation consisted of computer
printouts listing the dollar amounts and limits reported for the unidentified and
identified major claimants. Also, supporting documentation did not explain
where the information came from, how it was computed, what the accounting
logic was used to support the amount of adjustment for each transaction, and
who the preparer and the approver of the adjustment transactions were.

Although the adjustments were needed to correct accounting entry errors, DFAS
Cleveland personnel did not prepare journal vouchers because they did not think
journal vouchers were needed. Failure to prepare adjustment journal vouchers
resulted in a lack of an audit trial. Accordingly, DFAS Cleveland should
establish procedures to ensure that accounting adjustments are properly
prepared, fully documented and supported. Also, adjustment journal vouchers
should include all supporting documentation so that it can stand alone, without
requiring additional explanation.

Notifying and Obtaining Approval from Affected Navy Organizations of
Adjustments Made to the General Ledger. DFAS Cleveland adjusted official
accounting records without notifying the affected Navy organizations, as
required by DoD Regulation 7000.14-R, volume 6, chapter 2, January 1999,
which states that DFAS is to identify the requirement for adjustments to the
financial data. The regulation also specifies six exceptions that allow DFAS to
make adjustments without the prior approval of the affected organizations.
None of these exceptions were pertinent to the $495 million adjustment.

DFAS Cleveland made adjustments to reclassify and distribute the departmental
undistributed disbursements to appropriate major claimants so that the
organizations could research and make corrections to the undistributed amounts.
Therefore, DFAS Cleveland should coordinate and obtain approval from
affected Navy organizations for the adjustments made.

Separation of Duties. Office of Management and Budget Circular A-123,
“Management Accountability and Control,” June 21, 1995, and DoD Regulation
7000.14-R state that key duties and responsibilities in authorizing, processing,
recording, and reviewing official transactions should be separated among
individuals. Also, the manager should exercise appropriate oversight to verify
that individuals do not exceed or abuse their assigned authorities. The
technician who researched the need for making 81 on-line accounting
adjustments was also the person who entered the correction into the accounting
system. Also, there was no evidence that the 81 on-line accounting adjustments
were reviewed and approved by appropriate officials. This occurred because
DFAS Cleveland accounting personnel believed that adjustments to correct
accounting entries, due to a computer posting error, did not require formal
journal vouchers. As a result, adjustments were entered into the accounting
system without prior review or approval by the supervisor. Also, the lack of
separation of duty increases the probability of errors in adjustment amounts
being undetected.


                                    10
Recommendations
    B. We recommend that the Director, Defense Finance and Accounting Service
       Cleveland:

               1. Prepare journal vouchers in accordance with DoD and DFAS
    guidance for all correcting accounting entries.

               2. Provide appropriate separation of duties and adequate supervision
    to increase the reliability and integrity of financial information.

                3. Coordinate adjustments with affected Navy organizations to
    jointly determine the causes of the undistributed disbursements prior to
    recording the adjustments.

Management Comments Required
    The Director, DFAS, did not provide comments to a draft of this report. We
    request that the Director provide comments on the final report.




                                       11
Appendix A. Audit Process

Scope
    We reviewed the procedures and controls used by DFAS Cleveland to prepare
    financial information for the Other Defense Organizations. Specifically, we
    reviewed $559 million of the $711 million of abnormal balances reported in the
    March 31, 2000 trial balance. We reviewed the reconciliation procedures and
    initiatives made by DFAS Cleveland to determine the causes of undistributed
    disbursements. Also, we reviewed the accuracy and the completeness of the
    adjustments made to reduce the abnormal balance of accounts payable.

    DoD-Wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals and performance measures. This report pertains
    to achievement of the following goals and performance measures.

           •   FY 2001 DoD Corporate Level Goal 2: Prepare for now an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and finance systems. (01-DoD-2.5.1)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2.)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           •   Financial Management Area. Objective: Strengthen internal
               controls. Goal: Improve compliance with the Federal Managers’
               Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.



                                        12
Methodology
    We reviewed applicable laws, policies, procedures, and regulations related to
    the undistributed disbursements, the recording of liabilities, and the journal
    vouchers preparation. We judgmentally selected and reviewed supporting
    documentation and subsidiary ledgers for $495.0 million of the $645.5 million
    of abnormal balance in accounts payable and $64 million of abnormal balances
    in appropriated capital used and cost of goods sold reported in the March 31,
    2000, consolidated trial balance. We reviewed 81 on-line accounting adjustment
    transactions made to the Navy general ledger account, 1922 (Undistributed
    Disbursements) valued at $495.0 million for enforcement of established internal
    controls over preparation, documentation, and accounting logic. We reviewed
    DFAS Cleveland accounting records, and held discussions with DFAS
    Cleveland and DFAS San Diego accounting and systems personnel responsible
    for compiling, reviewing, and correcting financial information reported in the
    consolidated trial balance.

    Use of Computer-Processed Data. We relied on computer-processed data
    from STARS-Financial and Departmental Reporting, STARS-Field Level, and
    STARS-HCM to conduct the audit at DFAS Cleveland. We relied on computer-
    processed data without performing tests of the system’s general and application
    controls because the process for reconciling undistributed disbursements and
    preparing journal vouchers is primarily a manual process. Not evaluating the
    controls did not affect the results of the audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from April through August 2000 in accordance with the auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We included tests of management controls considered
    necessary.

    Contact During the Audit. We visited and contacted individuals and
    organizations in DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management (MC) Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of the
    management controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the DFAS Cleveland management controls over preparing and
    reporting financial information for the Other Defense Organizations. Also, we
    reviewed the controls over preparing and documenting journal vouchers. We
    reviewed management’s self-evaluations applicable to those controls.


                                      13
    Adequacy of Management Controls. We identified material management
    control weaknesses at the DFAS Cleveland, as defined by DoD Instruction
    5010.40. The DFAS is establishing policies and procedures to reconcile,
    research, and resolve undistributed disbursements and is also modifying
    STARS-HCM to show ledger account balances for prior periods. Also in
    August, 2000, the DFAS issued guidance covering preparation and use of
    journal vouchers. If DFAS Cleveland completes and implements procedures for
    reconciling undistributed disbursements, follows new guidance on preparation of
    journal vouchers, and implement the recommendations in this report, these
    management control weaknesses will be reduced.

Prior Coverage
    The General Accounting Office and the Inspector General DoD have conducted
    multiple reviews related to the abnormal balance. General Accounting Office
    reports can be accessed on the Internet at http://www.gao.gov. Inspector
    General, DoD, reports can be accessed on the Internet at
    http://www.dodig.osd.mil/audit/reports.




                                      14
Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland

Non-Defense Federal Organization
Office of Management and Budget




                                           15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       16
Audit Team Members

This Report was prepared by the Finance and Accounting Directorate, Office of the
Assistant Inspector General for Auditing, DoD. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.



F. Jay Lane
Salvatore D. Guli
Marvin L. Peek
Hoa H. Pham
Modupe M. Akinsika
Brian S. Benner
Andrea L. Hill
Gopal K. Jain
